                       NATIONAL RAILROAD PASSENGER CORPORATION

                                     OFFICE OF 1I\I:Sl'ECTOR GENERAL

                                    INVESTIGATNE CLOSING REPORT


     TITLE: Frand                                                                          CASE NUMllER: 07-130

     DATE OF REPORT: Septemuer 22,2009

     REPORT PREPARE» IIY:


     DACKGROUND:

                    ;;Iij~G.Je.nieli"n~1("OIG"), Offie~c.o~f.lt.l~ve.s~ti~g.nt.io.n~s.(."O.I'iI')r~~~iv.ed_il.I~_ollnll"alltlliolin.

                                     ~
     rcceived by 01 also incllie"ted
                                     ~,:~:~:i]!;i~=~o.1ltheir travel privilege passes
                                                                                   -.
                                                                                      .                          Information
                                                                                                                    approved
     nnd had knowlcdge oflltese I

     SUMlIfARY 010' INVESTIGATION:

    I.       OJ mot with _        regarding the allegation. Wheu questioned by OJ regarding her
(   involvement in grantiug free passage aboard the _to persons that were not ticketed or cntitled
    to ride on a pass,        readily admitted granting _ a n d _           permission to allow their
    friends freo passage aboard the • . _       advised or that sbe recnlled hnving given _ a n d
    • • •permission on nt lenst threo scparate occasions.

    2.       OJ interviewed _ a n d _regarding tho allcgation. They confirmcd tlmt,;:
    had allowed their friends and/Ol' significant others free passage abonrd the.. ~
    acknowledged that he had arranged for this type of travol on two occasions with _ ' s
    knowledge.            cknowledged that on two occasions he was permitted to trmlsport his friends
    andlor significant others nboard tho.with          s knowledge.

    3.      OJ Agents mct with . . . . .
                ~.;I~ the allegation.                                                        i' tenure as
                •             he could recall only two instmlees wherein employccs' friends IInd/Ol'
                            gllllll"" fi"ee 01' uHticketed travel. Those two separate illstallces involved
                                                         According to _ . mllnagers previously
    had, OIl ocension, allowed          staff to bring friends alldlol' significant others as a tactic to
    encourago cmployees to work durillg holidays in nn effort to combat crew shortages. III both
    instances,         stated that ho bccame aware of these violations "al\el·-the-thct."

           - : : :,. "I\er becoming nwaro of the latest incidcnt involvillg              OJ that he
    met with          IJId subsequelltly took disciplinary action regarding               pl:ovided
    or with a copy of 1\ December 12, 2008 leiter [copy allRche\lj contailling n writteu reprillland
         ,
        '"




             which was placed in             personnel file doculllenting the dlsciplinaty action taken against her
             ill regard to her allowing individuals fi'ee 01' unticketed travel aboard the.

             4.       On August 28, 2009, 01 submitted a management referml to


             5.  On September 21, 2009, OI received a response to the August 28, 2009 referral
             from_ [Copy attached]

             RECOMMENDATIONS:

             The writer reconullellds that this case bo closed with no ful1her action pending receipt of
             additional information.



             Supel'Visol':                                                          Date:

             Deputy Inspector Ge:llel·RI:-:'::::~_ _ _-I-:-,~:.c~,Ll1-I--           Dille:




    (




(



                                                             2
